<html>
<title> - THE DEPARTMENT OF LABOR'S VETERANS EMPLOYMENT AND TRAINING SERVICE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                   THE DEPARTMENT OF LABOR'S VETERANS
                     EMPLOYMENT AND TRAINING SERVICE
============================================================================


                               HEARING

                              BEFORE THE

                    COMMITTEE ON VETERAN'S AFFAIRS

                       HOUSE OF REPRESENTATIVES

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                        one hundred ninth congress

                              first session

                                -------

                              May 12, 2005

                                -------

         Printed for the use of the Committee on Veterans' Affairs

                            Serial No. 109-7

                    U.S. GOVERNMENT PRINTING OFFICE
22-361                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

<NOT AVAILABLE IN TIFF FORMAT>

OVERSIGHT HEARING ON THE DEPARTMENT OF LABOR�S VETERANS EMPLOYMENT AND 
                           TRAINING SERVICE

Thursday, May 12, 2005

U.S. House of Representatives,     
Subcommittee on Economic Opportunity,
Committee on Veterans� Affairs,
Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:20 p.m., in Room 334, Cannon House Office Building, Hon. John Boozman [Chairman of the Subcommittee] Presiding.

    Present:  Representatives Boozman and Herseth. 

OPENING STATEMENT OF CHAIRMAN BOOZMAN

    Mr. Boozman.  Good afternoon.  The Economic Opportunity Subcommittee hearing on the performance of the Veterans Employment and Training Service will come to order.
    As I said in our first meeting, this Committee has a very simple mission -- to promote jobs for veterans.  It is a simple concept, but one which takes a great deal of effort on the part of several governmental agencies.  VA�s Voc Rehab program is designed to put veterans into jobs.  The Veterans Employment and Training Service is about putting veterans into jobs.  The President�s National Hire Veterans Committee is about the business advantages of promoting veterans to corporate executive suites.  The Uniformed Services Employment and Reemployment Rights Act is about jobs for veterans.  Veterans Preference is about Federal jobs for veterans.
    Last week, I said this Subcommittee will focus primarily on two programs, VA�s Voc Rehab and Employment and the Department of Labor�s Veterans Employment and Training Service.  In our first hearing we took testimony on VA�s Voc Rehab and Employment program.  I think they are making progress on revamping what should be the VA�s crown jewel of programs, but they have significant work to do, especially in terms of measuring outcomes.
    Additionally, Committee staff from both sides of the aisle have met off-site with senior management, VR&E and VETS to explore ways to increase integration of their operations.  I believe the two agencies are preparing a joint master plan to further that goal and will provide it to the Subcommittee early in June.
    Today, we are here to conduct oversight of the Veterans Employment and Training Service, or VETS.  With a budget of about $200 million, VETS administers the State grant program to support State employment agencies, Disabled Veterans Outreach Program Specialists and Local Veterans Employment Representatives, or the DVOPS and LVERs programs, and the Homeless Veterans Reintegration Program, or HVRP.
    Today, we are here to learn about the overall performance of VETS.  However, in the near future, I intend to hold separate hearings on the DVOP/LVER program and HVRP because of their importance.  I anticipate further joint work with the Small Business Committee to further opportunities for veterans in the area of entrepreneurship.  Additionally, I have scheduled a site visit to Norfolk, Virginia in mid-June to observe a Transition Assistance class.
    Before we hear from the first panel, I want to express my disappointment with the Department of Labor concerning its duties under Title 38.  Chapter 41, among other things, requires an annual report on VETS activities.  This report is due to Congress each February.  Unfortunately, we have yet to receive the report.  As a matter of fact, the Department of Labor has not submitted the report since 2000.  I sincerely hope that VETS�s failure to keep Congress informed is not indicative of its commitment to finding jobs for veterans.
    The President, with No Child Left Behind and many of his other initiatives, has truly stressed accountability.  I am accountable every 2 years, as is the rest of the panel, we are accountable to the voters.  How are we to know what is going on if we don�t get the reports.
    So we are going to get the reports.  We are going to work it out.
    I want to emphasize that I am open to new ideas and new ways to ensure that veterans are properly prepared for, enter, and remain in good jobs.  I hope that today�s panel will bring some new thinking with them.
    I know our Ranking Member, Ms. Stephanie Herseth from South Dakota, has a serious interest in the topic.  I now recognize her for any remarks she may have.

OPENING STATEMENT OF HON. HERSETH

    Ms. Herseth.  Mr. Chairman, thank you very much.
    And good afternoon.  Good to see so many of you again.
    Mr. Chairman, thank you for holding this hearing to examine the efforts, accomplishments and challenges of the Department of Labor Veterans Employment and Training Service.  Indeed, the employment services and protections provided by VETS are critically important to service members, veterans and military families as they seek success in the civilian workforce.
    Mr. Chairman, I am confident that your steady, bipartisan leadership of this Subcommittee will provide a means for robust oversight over these important programs.  The men and women who wear the uniform in defense of this country deserve nothing less than a top-quality employment service as well as rigorous enforcement of reemployment laws.
    The State of South Dakota has a number of National Guard and Reserve units activated in support of operations in Iraq and Afghanistan.  I am afraid this situation may continue for some time.
    As you may suspect, I am very concerned and interested in VETS efforts with respect to providing outreach and transition services to returning Guard and Reserve personnel, including any special efforts to assist rural service personnel.
    I am also interested in examining whether VETS believes it has the necessary resources and staffing to provide sufficient and timely services under its broad mission.  It appears to me that while the demand has grown for services, that the budget request has remained relatively level.
    Finally, Mr. Chairman, VETS has responsibility for many important programs that can assist veterans in receiving training, gain skills and obtain quality employment.  I look forward to hearing more about these initiatives, such as Licensing and Certification, Homeless Veterans Reintegration Program, Apprenticeship and On-the-Job Training and the National Veterans Training Institute.
    I welcome all the witnesses today and thank you for your testimony.  Your assistance and guidance provide important insight into often complicated subject matter.
    Thank you, Mr. Chairman.
    Mr. Boozman.  Thank you.  Let us go ahead and get started.
    The members of the first panel include Mr. Rick Weidman, Vietnam Veterans of America; Mr. Rick Jones, AMVETS; Mr. Jim Magill, VFW; Mr. Peter Gaytan from the American Legion; Carl Blake, Paralyzed Veterans of America; and Brian Lawrence, Disabled American Veterans.

STATEMENTS OF RICHARD JONES, NATIONAL LEGISLA-
    TIVE DIRECTOR, AMVETS; JAMES N. MAGILL, DIREC-
    TOR, NATIONAL EMPLOYMENT POLICY, VETERANS OF
    FOREIGN WARS OF THE UNITED STATES; CARL BLAKE,
    ASSOCIATE LEGISLATIVE DIRECTOR, PARALYZED 
    VETERANS OF AMERICA; BRIAN E. LAWRENCE, ASSIS-
    TANT NATIONAL LEGISLATIVE DIRECTOR, DISABLED
    AMERICAN VETERANS; PETER GAYTAN, DIRECTOR,
    VETERANS AFFAIRS AND REHABILITATION, THE 
    AMERICAN LEGION; AND RICHARD WEIDMAN, DIREC-
    TOR OF GOVERNMENT RELATIONS, VIETNAM VETER-
    ANS OF AMERICA 

Mr. Boozman.  Mr. Jones.

STATEMENT OF RICHARD JONES

    Mr. Jones.  Certainly, Chairman Boozman, Ranking Member Herseth.  Thank you for your invitation.
    AMVETS is very pleased to be here and wants you to know we share your concern about accountability.  With thousands of veterans returning home from the global war on terrorism each and every day, addressing the employment situation of veterans in a positive way is a national priority.
    The Department of Labor�s Veterans Employment and Training Service administers two primary programs, the Disabled Veterans Outreach Program and the Local Veterans Employment Representatives program.  Each assists not only veterans, but also helps Reservists and Guardsmen, who we recognize as playing an OPTEMPO role in the total force in today�s national defense.
    For decades, these DVOPs and LVERs have been the cornerstone of employment services for veterans.  DVOP and LVER staff are frontline providers for services to veterans.  In our view, the folks who manage these jobs should be veterans.
    I want to give you an example found within our own organization of veterans advocating for veterans.  The AMVETS Department of Ohio developed and fully operates a 501(c)3 career center designed to assist veterans in their career needs.  The AMVETS Career Center now provides a range of services helping veterans learn more about computers, business math, business grammar, business management and whatever is important to refresh or upgrade their skills for gainful employment.
    The AMVETS Career Center provides these services to veterans who are homeless, unemployed or underemployed, those who want to prepare for a new career or a better job.  To recently separated veterans who are making the transition to the civilian workforce, the center also provides nonveterans an opportunity to upgrade their skills for a modest fee; and the cost for veterans is zero, there is no cost for veterans.
    Mr. Chairman, this is just one example of the fine work veterans do for their fellow veterans.  They have a natural attachment to the veteran and play a pivotal role in making sure veterans who come back to their hometowns have every advantage to excel and be part of the local workforce.
    On a related point, AMVETS is particularly disappointed that a proposal to transfer the Veterans Employment and Training Service (VETS) from the Department of Labor to VA is still being discussed.  We have testified in opposition to such a shift, and we remain strongly opposed.  Shifting VETS to VA from DOL will not improve the employment situation.  DOL knows the job market.  They know the skills that are required to fill a job beyond any other executive department.
    Frankly, VA has its own challenges with resource needs to address veterans� health care and backlogs in the claims processing.  Therefore, we do not believe that moving VETS to VA is a proper or wise move, and we hope that you will continue to agree with us on this as you have in the past.
    A word about the budget:  We are encouraged by the administration�s recommended increase in VETS programming, and we ask for your strong commitment in supporting adequate funding in the final appropriations for the new year.
    Mr. Chairman, this concludes my statement.  I look forward to any questions you might have.

    [The statement of Richard Jones appears on p. 47.]

    Mr. Boozman.  Mr. Magill, you are recognized.  I might just mention that you are going to be retiring in June, or moving on?
    Mr. Magill.  Yes, sir, I think my last day is going to be the end of July.
    Mr. Boozman.  Good.  If we don�t see you between now and then it has really been a pleasure working with you.  Hopefully, we will have you over here for something.
    Mr. Magill.  I am sure you will.
    Mr. Boozman.  But like we said, we appreciate your service.

STATEMENT OF JAMES N. MAGILL  

    Mr. Magill.  Thank you.  That came as quite a surprise, a pleasant surprise.  Thank you.
    As representatives of the VFW travel throughout our Nation and visit military installations overseas, one of the most frequently expressed concerns is whether the military personnel will be able to transfer their skills to another job when they are released from active duty or when they retire.  The VFW is also hearing from veterans who already have retired and realize now that they need additional retirement income.  They too are concerned about the possibility of not being able to find employment.
    Veterans deserve and have earned an employment program dedicated specifically for them.  They currently have such a program.  While the VFW does not believe that the system is broken, we do believe it can and must be improved.
    The VFW supported the provisions of the Jobs for Veterans Act as it provided a crucial element for vets to be successful, that being �accountability.�  while progress is being made to implement Public Law 107-288, there are still no clear, well-defined performance standards that can be used to compare one State to another or, for that matter, one office to another office with in that State.
    Even where such standards have been produced, VETS and its regional administrators have almost no authority to reward a good job or impose penalties for poor performance.  The only real authority, although seldom used, is the power to recapture funds when a State is in violation of law.  The VFW believes this course of action could ultimately prove detrimental to the veteran.  It should only be used as a last resort.
    For several years, many have seen a need for standards to be put in place for Disabled Veterans Outreach Program specialists, or DVOPs, and the Local Veterans Employment Representatives, or LVERs.  Addressing this need, VETS initiated performance measures in 2002 that applied to all veterans served by the public labor exchange.  The same performance measures were later applied to DVOPs and LVERs.  These reforms are essential for a viable and accountable veterans placement program which meets congressional intent.
    The VFW believes VETS must complete its development of meaningful and enforceable performance standards and reward States that exceed established standards by providing additional funding.  Public Law 107-288 authorizes VETS to provide cash and other incentives to individuals, but not entities.  Congress should amend this law so such entities, such as career One-Stops, may be recognized.
    Another area that I would like to address is the National Veterans Training Institute.  The NVTI is administered by staff from VETS through a contract currently with the University of Colorado at Denver.  NVTI trains Federal and State employees and managers who provide direct employment and training to veterans and the armed services personnel.  The NVTI curriculum offers courses for staff of the DVOP and LVER in core professional skills, marketing and accessing the media, case management, vocational rehabilitation and employment program support, and facilitation of Transition Assistance Program, TAP, workshops.
    Congress must continue to fund the NVTI at a level to ensure training is continued, as well as expand it to State and Federal personnel who provide direct employment and training services to veterans and service members in an ever-changing environment.
    In closing, Mr. Chairman, I would like to comment on the administration proposal known as "WIA Plus."  this proposal would fund the DVOP/LVER plan through a block grant to be used at the discretion of State governors.  The grant would be administered by the Employment and Training Administration, thus resulting in VETS having to relinquish all control and administration of the DVOP/LVER programs.  This proposal has the potential to ultimately lead to the dismantling of both the DVOP/LVER programs, as well as VETS itself.
    The VFW believes VETS is the proper office to continue administering and providing oversight to this crucial veterans� program.  Therefore, the VFW strongly opposes WIA Plus.
    This concludes my statement.

    [The prepared statement of James Magill appears on p. 54.]

    Mr. Boozman.  Mr. Blake.

STATEMENT OF CARL BLAKE

    Mr. Blake.  Chairman Boozman, Ranking Member Herseth, PVA would like to thank you for the opportunity to testify today on the Department of Labor�s Veterans Employment Training Service.  I will limit my remarks to just a couple of the key programs that VETS administers.
    The TAP and DTAP programs generally are the first service that a separating service member will receive related to employment.  These programs offer job-search assistance and related services.  TAP consists of a comprehensive 3-day group of workshops at selected military installations both in the United States and in overseas installations.
    The DTAP was established for service members who are leaving the military with a service-connected disability.  This program is meant to include not only the normal 3-day TAP sessions, but also individual instruction to help determine job readiness for the candidate, as well as address the special needs of disabled veterans.
    Although PVA believes that TAP has been a successful program, there remains more to be done.  Continuing emphasis on conducting these programs at overseas installations is a must.  PVA also believes the DTAP program has not achieved the same level of success that the TAP program has.
    PVA members are more likely to get transition services from a DTAP program, because they are exiting the military through the medical retirement process.  However, many times, severely disabled veterans needing DTAP services fall through the cracks, especially spinal cord-injured veterans, who may already be getting health care and rehabilitation at a VA spinal cord injury center, or even at a private facility although they may still be on active duty.  Because these individuals are no longer on or near a military installation, they are often forgotten in the transition assistance process.
    While a service member may be at a VA medical facility, they are still assigned to the nearest military installation as a medical holdover.  It is incumbent upon VETS to ensure that the necessary staff go to the medical facility, whether it is a VA facility or private facility, to ensure that these severely disabled service members get the services they deserve.
    The Homeless Veteran Reintegration Program, as I previously testified, is one of the most cost-effective and cost-efficient programs in the Federal Government.  In spite of its success, it remains severely underfunded.  PVA is a member of the National Coalition for Homeless Veterans and supports the need to expand funding from the $22 million recommended level in the President�s budget request for this year to the $50 million authorized level that was included in the bill that was considered by this Committee last week.
    Perhaps the most important services provided by VETS are done by DVOP coordinators and LVER.  PVA, along with many of the other veterans service organizations, worked for years to have clear performance standards put in place for both DVOP and LVER staff.  In 2002, VETS initiated limited performance measures, based on the rates of employment and retention.
    Following the enactment of the Jobs for Veterans Act, VETS began implementing more focused methods for DVOP and LVER staff.  These changes were meant to emphasize the place of severely disabled veterans and other veterans facing barriers to employment to avoid some forms of cherry-picking.  Though it is unpleasant to accept, when someone�s job is at risk, human nature may cause the employment specialist to select the easy placement over the one that may requires more effort.
    The revision of the duties of DVOP and LVER specialists in the Jobs for Veterans Act and the continuing efforts of VETS to establish meaningful performance standards are essential to the reinforcement of the services they provide.  PVA welcomes these changes as they are essential to a viable job placement service.
    PVA does have some concerns about the effect of proposed changes to the grant program that funds a DVOP and LVER staff.  We are particularly concerned about the proposals that would provide a consolidated grant to the States for employment service programs, as Mr. Magill mentioned, the WIA Plus.  The governors would then be given the authority to distribute grant money to any employment program they administer with no clear specification for priority of services.  Although the Jobs for Veterans Act reaffirmed the priority of service to veterans and disabled veterans in employment service centers, PVA has seen no accountability measures proposed that would ensure that States adhere to this priority.
    PVA believes that DVOP and LVER staff positions will be at risk of being eliminated if funding for DVOP specialists and LVERs is consolidated with other employment programs.  It would be easy for these positions to be eliminated in favor of other employment services that the governor may deem to be similar to those being provided by DVOP and LVER.
    PVA looks forward to working with this Subcommittee to ensure that veterans have access to the employment services that they have earned and deserve.
    I would be happy to answer any questions that you might have.
    Thank you, Mr. Chairman.
    Mr. Boozman.  Thank you.

    [The prepared statement of Carl Blake appears on p. 59.]

    Mr. Boozman.  Mr. Lawrence.

STATEMENT OF BRIAN E. LAWRENCE  

    Mr. Lawrence.  Thank you, Mr. Chairman.
    Chairman Boozman, Ranking Member Herseth, on behalf of the Disabled American Veterans, thank you for the opportunity to testify on the needs and performance of the Department of Labor�s Veterans Employment and Training Service, VETS.
    VETS was established to help disabled veterans to overcome challenges they face when seeking employment after completing service in the Armed Forces.  As you know from my written statement, the DAV is pleased with the overall performance of VETS, but with the cooperation of the VETS staff, we have identified areas for improvement.
    We look forward to working with VETS throughout the upcoming months to ensure its programs are functioning at the highest possible level of efficiency and effectiveness.  Reaching this goal will require adequate funding.
    At a time when the budgetary issues weigh heavily on every government agency, the utmost scrutiny must be afforded to each request for greater resources.  This is an instance, however, when expenditures should be considered an investment.  Helping disabled veterans obtain self-sufficiency is not only the right thing to do, it is the smart thing to do from an economic standpoint.  Veterans who are employed contribute to the economy.
    Studies have shown that the GI Bill provided a tremendous, immeasurable boost to the Gross Domestic Product.  The DAV believes that investment in VETS programs now will produce similar results for decades to come.  It is, thusly, important we ensure VETS remains in existence to fulfill its mission.
    The DAV believes an unintended consequence of the proposed WIA Plus legislation is the eventual abolishment of that.  WIA Plus would provide funding for DVOP/LVERs through a "consolidated grant."  Once the funding is established thus, VETS will lose all oversight as to how the money is actually spent.  WIA Plus would give VETS �sign-off� authority on State plans, but thereafter the Employment and Training Administration, or ETA, would control the grant and the oversight that comes with it.
    The DAV has no confidence that ETA would ensure responsibilities assigned to DVOP/LVERs personnel are exclusively dedicated to serving veterans.  It was the lack of services dedicated to the unique needs of veterans that led to the creation of VETS in the first place.  DAV is concerned that certain State employment centers have already assigned duties that are inconsistent with the VETS mission.
    The DAV wants VETS to have strong oversight authority to ensure that DVOP/LVER personnel remain focused on helping disabled veterans receive the maximum level of employment opportunities.
    Mr. Chairman, that concludes my statement, but I would like to add, before closing, that the DAV is encouraged by the bipartisan efforts of the Subcommittee and the efforts that you have made to improve economic opportunities for veterans.
    Like the Subcommittee, members of the DAV fall on both sides of the political spectrum, yet we recognize that taking care of disabled veterans should be among the Nation�s highest priorities.  Such a solemn responsibility has no room for political ambitions, and we are pleased that the Subcommittee conducts business in such a manner.
    On behalf of our 1.2 million members, we thank you.
    Mr. Boozman.  Thank you, Mr. Lawrence.
    
    [The prepared statement of Brian Lawrence appears on p. 71.]

Mr. Boozman.  Mr. Gaytan.

STATEMENT OF PETER S. GAYTAN  

    Mr. Gaytan.  Thank you, sir.
    Mr. Chairman, I appreciate the opportunity to share the views of the American Legion on the Department of Labor�s Veterans Employment and Training Services, its resource needs and the State grant program which funds Disabled Veteran Outreach Program specialists and Local Veterans Employment Representatives.
    Every year, 250,000 service members are discharged from the armed services.  These former service personnel are actively seeking either employment or the continuation of formal or vocational education.  The VETS program offers transitioning veterans the assistance they need to obtain employment.
    President Bush�s fiscal year 2006 budget request for VETS is 224 million.  This marks a modest $3 million increase from the final funding allocated in the fiscal year 2005 appropriations bill.
    The American Legion remains steadfastly supportive of VETS within DOL as administered by the Assistant Secretary of Labor for Veterans Employment and Training and the critical role it continues to have in the lives of veterans and their families.  The American Legion recommends 339 million for the Veterans Employment Training Service for fiscal year 2006.  This would provide funding for the State grants for LVERs and DVOPs, the National Veterans Training Institute, the Homeless Veterans Reintegration Program and the Veterans Workforce Investment Program.
    Additionally, the American Legion supports stronger oversight of funding for DVOPs and LVERs to ensure that the State grants are indeed earmarked for veteran-specific services.  It is important that States be held accountable for the funds they received under the DVOP and LVER grant program.
    The American Legion is concerned that the rate of job placement of veterans, training programs and other vital services may have decreased.  Under the previous performance data reporting system, veterans seeking employment and those entering employment could only be counted after mediated service was provided.  Under the current system, individuals only have to register and enter the employment system to be counted as assisted veterans, thereby giving the false impression that the One-Stop Career Centers are doing a better job of finding employment and training opportunities for veterans.
    The American Legion is concerned with not only how employment services are delivered by the One-Stops, but also with veterans receiving priority of services as outlined by the 2002 Jobs for Veterans Act.  The American Legion is pleased to hear from DOL officials that veterans are actually receiving priority of service; however, as you alluded earlier, sir, VETS has not published any data for determining how effective its priority veterans services are, nor have they reported to Congress on any progress made in regards to the implementation of key aspects of the 2002 Jobs for Veterans Act.
    The American Legion strongly recommends a revision of existing VETS reporting requirements for measuring performance standards and for determining compliance with requirements for providing employment services to veterans.  The rolling quarter reporting system should be administered in a timely manner to better project the employment services being sought by veterans and to more accurately reflect the efforts of DVOPs and LVERs.
    The American Legion strongly believes funding levels for DVOP and LVERs should match Federal staffing level requirements and that they be allowed to provide service to veterans only.  Adequate funding would allow the programs to increase outreach efforts, as well as staffing, to offer specialized comprehensive case management job assistance to disabled and other eligible veterans.
    With the dramatic increase in the number of veterans from the wars in Iraq and Afghanistan being discharged, and the increasing importance of the One-Stop Centers in assisting all transitioning veterans, the American Legion strongly recommends that VETS continue frequent monitoring visits to the centers and provide strict oversight of these programs.  DOL must ensure that veterans receive priority in all programs and services created specifically for their unique needs.
    Mr. Chairman, this concludes my testimony.  Again, I appreciate the opportunity to be here, and I am willing to answer any questions you may have.
    Mr. Boozman.  Thank you.

    [The prepared statement of Peter Gaytan appears on p. 77.]

    Mr. Boozman.  Mr. Weidman.

STATEMENT OF RICHARD WEIDMAN

    Mr. Weidman.  Mr. Chairman, thank you very much for the opportunity to appear here today.  And because this is the first time I have actually had the chance to say so publicly to you and to the Ranking Member, as well as to Chairman Buyer and Mr. Evans, thank you so much for creating this Subcommittee.
    The attention that needs to be focused on employment and on the means to have gainful work at a living wage is -- from PVA�s viewpoint, for 25 years now, we have considered it to be the nexus of the readjustment process.  Not everybody is going to need health care, not everybody is going to need a vet center, but everyone will need work.
    It could be in the form of either self-employment, small business, microbusiness or a job, but everyone is going to need a job; and the symptomatology of all the other problems will ameliorate if you have work at a living wage.
    So we thank you for focusing on this central, central issue, sir.
    Insofar as the history of the Employment Service, you will recall that in 1933, as part of the legislation that created Social Security and Unemployment Insurance, the Job Service was first created and was farmed out to the States, along with the administering of the Unemployment Insurance.  Frankly, it was industry and business leaders who wanted -- if they were going to pay Unemployment Insurance tax and checks to workers who were unemployed, they wanted WIA to try to get those people back to work as soon as possible.  Thus was the creation of the modern Job Service.
    From the very outset, veterans had priority within that system.  It was in the original law.  There were problems from the outset, and in 1944 it was part of the set of the laws that we commonly know as GI Bill.  There was creation of the Local Veterans Employment Representatives, who were supposed to assist the office manager in ensuring that everybody in each Job Service accorded the proper priority of service to veterans returning from World War II.  In some cases it did; in some cases it did not.
    Following Vietnam, the Workforce Investment Agencies, as we call them now -- Employment Services, we called it then -- testified on the other side of the Hill before Senator Cranston.  They weren�t placing any disabled or Vietnam veterans because they could not find them.
    I would mention to you, Mr. Chairman, that in the 1970s, when I returned from Vietnam, I was teaching at a 4-year college in the Vermont State College system and as an academic administrator.  Because there were such significant problems with the Job Service not meeting the needs of Vietnam veterans, we formed a statewide Vietnam veterans community-based organization focused on employment and barriers to employment in order to meet the needs of our brothers and sisters, particularly disabled vets within the State of Vermont.  That happened all over this country because, even then, the Employment Service was letting us down.
    The DVOP service was created to say, Okay, if you can�t find the disabled vets and you can�t find the Vietnam vets, we will then create this program to go out and find those folks and bring them in.  That was created and that was the genesis -- first, by executive order of President Carter, and some -- then, later on, it was locked into statute, I believe -- in 1979, if I recall correctly.
    Throughout the 1980s and into the 1990s, Chapter 41 of Title 38, we added and added and added various and sundry prescriptive and proscriptive fixes to the problems of lack of will and lack of accountability out there in the States across this Nation, with veterans still not getting the kinds of services which they, in fact, had earned by virtue of military service.
    Finally, in the late 1990s, this Committee began to address this issue; that led to a piece of legislation, after an extraordinary year-and-a-half-long series of seminars, round tables, et cetera, that we thought was something that not everybody was totally happy with, but moving us towards a results-oriented system, something that is based on a GPRA, the Government Performance and Results Act, which Vietnam Veterans of America strongly subscribes to.  It was defeated at the last minute by some inappropriate action -- and, some suggest, illegal -- on the part of one of the government executive branch officials at that time.  Anyway, it threw us right back to where we are today.
    We have now a system that measures its success based on a fallacious system, in our view, where it is the "post hoc ergo propter hoc" fallacy, the logical fallacy that something happens and therefore anything that comes after it is cause.  Somebody registers with the Job Service and gets a job the next quarter, or the quarter after that, and the presumption is, in the measurement system they use now, it is because they got something from the Employment Service or from the One-Stop that was available.  In many cases, that is, flat, just not true.
    Just look at the jump in 1 year when they finally implemented that system, I think, 3 years ago -- I think almost a 50 percent jump in their positive terminations in 1 year.
    What we need is good metrics that measure real performance, one; and two, is a reward system, that means cash, American that is based on actual performance that is measurable.  That is the heart and essence of the Government Performance and Results Act.
    Insofar as this point, there are a number of specific things that we strongly urge the Committee to take a hand in.  One is pushing VETS to start to take steps to really measure the performance of the various State workforce development agencies.  That can be started right there in their building by taking care of what used to be called the SPIR system, Statistical Participation Information Retrieval system.  That tracks everyone in a WIA program, in a Workforce Investment Act Program in every State right down to the service delivery area, or the WIB area, as they call it today in the Nation.
    Yet that has not been done.  There has not been any nascent effort to do that.  So that is number one.  Use the system that you have got to start to track it.
    Second is, implement regulations published through the public rulemaking process, regulations to fully implement the Jobs for Veterans Act.  In the absence of regulations, there is no way in the world that the Federal Government is going to be able to hold either the States, much less the municipalities, and the One-Stop shops, accountable for whether they do or do not meet the requirements of the Jobs for Veterans Act.
    Number three is, we would suggest that what we need is Vet One-Stops.  I neglected to mention it in my executive summary; I apologize, Mr. Chairman.  There are two books that I meant to bring along today.  One is called Veterans Come Back, and the other is The New Veteran.  They are both written -- one was written in 1944 and the other in 1946.  It details the kind of community centers that involve the private sector and representatives of all elements of the private sector in the majority of both small and large cities in the United States and all of the Federal entities and State entities into Veteran One-Stops across this country.
    So it was a public-private solution to our -- in the greater sense, the community welcoming back those who were fighting for us, into the community.  It wasn�t something that you let government do.  It was something that everyone did.  And because it had private-sector measurements involved, it worked; and we would suggest that we need that once again.
    Last but not least, I would close with what we and our national president, in our legislative testimony this year before Chairman Buyer and the full Committee, called for, and that is a national convocation.  Now, we suggested that was to deal with all of the problems that returning veterans have and to look at, are we doing the right thing.  TAP and DTAP, in many cases, don�t work.  The people who are really falling through the cracks, as was pointed out by one of my distinguished colleagues, are the Guard and the Reservists who are demobilized; they are not in here, and many of them are unemployed.
    I know somebody here in Washington who has talked about people in his unit -- because they were mobilized three times in the last 7 years, their spouse frankly said, I didn�t sign up for this.  They are no longer married.
    They come home, they are unemployed or way underemployed, and they are living in their car.  They are living in their car, and there is part of the total force.  What does this do to our total force and the Nation�s ability to defend itself?  But even more importantly, this is not the way to treat the men and women who have placed themselves in the line in defense of all of us.
    So, at minimum, we would urge strongly, Mr. Chairman and Congresswoman, that you take the steps to start -- at least on the employment and training aspects, to start to pull together a group of public and private individuals to look for an action plan that is focused on things that are measurable, that can be done by both industry and by business organizations and by organized labor and by Federal entities, and certainly with the leadership of the Congress.
    Once again, Mr. Chairman, I thank you very much for the opportunity to share these thoughts with you and the Committee here today and look forward to answering any questions.
    Thank you very much. 

    [The prepared statement of Richard Weidman appears on p. 88.]

   Mr. Boozman.  Thank you.  I think each of you in your testimony has expressed opposition to Labor�s proposal to blend the DVOP/LVER grant with other grants of the State.  Let us talk about that a little bit more.
    Would anybody like to elaborate more on that?  Again, that is one thing that it seems like we have got universal agreement -- or disagreement with, from you all.
    Mr. Gaytan.  Mr. Chairman, if I can, the American Legion opposes the suggested changes that have been expressed, the opposition that has been expressed here this afternoon by everybody on the panel.
    What the American Legion opposes is the lack of oversight that will be provided in the States once this block grant is given to the governor and the decision is made within the State on how to distribute funds for education.  American Legion wants the funds that are distributed to the States to be earmarked specifically for programs that will benefit employment programs for disabled veterans, hard-to-place veterans, any veterans that need that assistance through those programs to obtain gainful employment.
    Mr. Weidman.  The WIA Plus, in taking off all strictures that are now in Title 41 and not replacing that with hard metrics that would measure actual performance, is giving the States license.  Some have suggested -- there are some States like South Carolina -- like South Dakota, I might add -- where veterans priority service really does happen.  But there are other States where it doesn�t happen, particularly the larger States, and where DVOPs and LVERs are already being used to serve nonveterans and to do clerical tasks that have nothing to do with helping the veterans whom they are there to serve.
    What we at WIA Plus would do is simply legitimize and make illegal those abuses that are already happening.  What we, in fact, need to do is stop the abuses and find a way to move to a different kind of system instead of legalizing the unlawful activity that is already taking place.
    Mr. Jones.  Just very briefly, the responsibility for veterans, their care and assistance in job location, is a national obligation.  One, you set earmarked funds into a block grant for governors� use.  You essentially shift the responsibility to the discretion of the governor.  Nothing wrong with all governors� discretion, but that should be local tax money for the governor.
    We are concerned that veterans would be lost in the mix, and there would be little, if any, potential for control on the Federal side in the obligation that we have and the privilege that we have to assist the veterans in a seamless transition to the civil workforce.
    Mr. Magill.  I share the remarks of my colleagues at the table here.  
    One of the things that struck us was the language "at the discretion of the governor."  We firmly believe that -- as I mentioned in my statement, that this could be the demise of the DVOP/LVER program if there is no guarantee that that money would be spent for the employment of veterans.
    Thank you.
    Mr. Blake.  I just would reaffirm what -- Mr. Weidman made the point about priority of service.  When we had a meeting with VETS recently, I think the point we tried to make -- and I know there have been some efforts to readjust some of the proposals with regard to WIA Plus, but none of the proposals we have seen have reaffirmed the priority of service that exists for veterans in employment placement service.  The Jobs for Veterans Act, which was passed out of this Committee in the 107th Congress, reaffirmed that.  Yet we think that that would throw the priority of service for veterans right out of the window.
    Furthermore, a complaint that we registered in a number of arenas when it comes to veterans is the fact that there is no accountability.  The WIA Plus doesn�t hold governors or the States as a whole accountable for making sure veterans receive that priority service.  As long as that vacuum exists, there is no way that we could support this proposal.
    Mr. Boozman.  Yes, sir.
    Mr. Weidman.  Mr. Chairman, I know this is an oversight hearing on the Veterans Employment and Training Service, but may I say, sir, that it has to look at -- VETS is only one small part of the U.S. Department of Labor, and it is the Secretary of Labor who needs to be addressed on the issue of whether or not we are going to do with these things.
    Now the Employment and Training Administration and the assistant secretary there has always been the one who controls the lion�s share of the money.  The VETS, the 200 million is a lot of money to us, but it is tiny in comparison to the money that goes through the Employment and Training Administration.  It is not quite a decimal to us, but it is very small in comparison with the Employment and Training Administration.  But it is not enough.
    And they want the discretion.  If the States were going to take care of their veterans at their discretion, using other ETA moneys, they would have already done so.  But I only know of one State in the Nation who has ever used nonveteran-specific moneys for veteran-specific programs.  It only happened twice, and that was when we had everybody lined up.
    I know that I was part of that; I know this system well.
    If I may suggest, Mr. Boozman, from personal experience, having for 8 years, 8.5 years, served as a veterans service program administrator -- and many of those people are wonderful people, many of your DVADs are wonderful, capable people, but they have no cards to play.  They have nothing short of the nuclear option that was mentioned before of recapturing the money back from the States.  Politically, that is not going to happen.
    VETS is not going to take all of the money away from the Governor of Arkansas for the VETS program, or from the Governor of South Dakota.  It is not going to happen.  Therefore, you are left with no teeth in the law.  We need other options that focus on a system of awards, and perhaps sanctions, based on actual performance, which currently we don�t have, sir.
    Mr. Boozman.  Thank you.
    Ms. Herseth.
    Ms. Herseth.  Thank you, Mr. Chairman.
    Thank you for your thoughts and your testimony, particularly as it relates to this whole issue of WIA Plus and what this could do.  I share many of those concerns, and those concerns are shared by our colleagues in the other Chamber, as well, as they are evaluating what happened here.  We certainly appreciate all the ideas that you have offered and what we can do by making some legislative changes or addressing some of the budgetary issues that are important and improving the VETS service in the Department of Labor.
    I know from my working relationship with the chairman and, certainly, the dedication of all the staff for this Committee and staff in our own offices, that we welcome your ideas -- given your service to our veterans implementing much of what goes on in these programs on the ground to share those ideas and our ability to work together to get that done.
    In my opening statement, I made reference to the fact that I am concerned with what appears to be a simultaneous demand for services, but yet level funding or relatively level funding in the budget request for the Department of Labor here.
    I am particularly concerned, especially for Iraqi Freedom and Enduring Freedom veterans when they first come home, that their first reaction for any program that is being administered on their behalf is a positive one and that we have adequate resources, and staffing needs to make sure that that first interaction experience is a positive one.
    So based on your various groups� contacts with some of these returning veterans, have you already started hearing from them about any frustrations, any complaints, any concerns with time delays, responsiveness, in their efforts to seek opportunities in employment or reemployment?
    Mr. Magill.  We -- I have not had a lot of calls coming directly into my office, somebody calling specifically saying that they have had a difficult time working with VETS.  I do have calls from somebody needing me to find them a job.  Unfortunately we don�t have that.  But what I try to do is guide them in the right direction.
    One of the things I do is talk about VETS.  In some cases they have already tried VETS.  They have contacted them, but that did not result in employment.  Now, that is not to say that that is all the time.
    I would like to get calls saying everybody is doing a great job, but unfortunately people don�t do that.  They only call when they have problems.  Some of the people that I am getting calls from they have had a significant problem, other than just finding employment, that they are dealing with.  It is the whole mix that has to be addressed.
    If I can just take it one step further, I mentioned in my statement I am getting a lot of calls from people who have retired from one job and are finding that they cannot make it on what they thought would be a substantial income in order to maintain their life-style.  I am getting more calls than I would like to get from them.
    Mr. Blake.  I think there is one concern that PVA had, and I think I emphasized this many times in my testimony previously, on the Voc Rehab program.  It is the administering of the DTAP services by VETS.  TAP pretty commonly gets done, for the most part the way it is supposed to be done, but I would say that DTAP is not as consistently administered.
    We keep hearing about the Iraq and Afghanistan veterans who are getting these services.  Most of that is because they are coming through Walter Reed and Bethesda and a couple of facilities, as we have talked about in a previous hearing.  They are getting all the best services there.
    But there are a lot of men and women who are at their home installations, who are getting injured on active duty, not necessarily in the war in Iraq and Afghanistan, and also there are those who are returning to those installations and not necessarily just going to Bethesda or Walter Reed, particularly the disabled men and women who are returning or who are at their stations, who are not getting the services that they want.
    Those are perhaps the individuals who are going to need those services the most, because they are not only going to face the real challenge of their physical disability, but there are going to be automatic barriers that just happen to exist -- both physical and psychological, and other areas -- in trying to gain employment because of their disability, that have just existed for a long period of time.
    So I think we need to keep looking at the DTAP program.  I don�t think we can emphasize enough the need to make sure that that program, in particular, is taking place.  I made that point about VETS staff going out to the facilities where these disabled men and women are and giving those services, if that is what is required. 
    In most cases -- particularly from PVA members� perspective -- they are notable to get to the military installations where most of these services are being provided and so the VETS staff have to get out there to them.
    Mr. Gaytan.  If I may -- first, let me thank you for your concern for that new generation of veterans who are returning and are seeking employment with altered lives, with things that they are dealing with that they had no idea they would have to deal with, being amputation, mental health care.  Thank you for your concern.
    May I suggest that we readdress your specific point of how successful the VETS programs are being for that new generation of veterans, as we continue in the global war on terrorism?
    I am not saying we haven�t been involved in this enough and there haven�t been enough casualties and there haven�t been enough returning veterans.  What I am saying is, to properly gauge the concern that you have raised over the successfulness of the VETS program for that new era of veterans, to ask the VSOs, to ask those DVOPs and LVERs that we have direct contact with, to ask them specifically the numbers of returning veterans from IF, OI/EF, and how successful they are being, even going to the VETS offices and asking for assistance and then receiving the assistance they need to successfully integrate back into the civilian workforce.
    I say �back into� when a lot of these soldiers and sailors and airmen that are returning have never had a civilian job.  They are 19- and 20-year-olds.  They only know a job where they are wearing the uniform of this country.
    So I think we, as VSOs -- and I again appreciate your interest in this -- can give you the information you need, and you should gain that information in the next year or two.
    Mr. Weidman.  Three points around this, if I may.
    The first is, we hear consistently about the -- we hear consistently about the inconsistency of TAP and DTAP.  Perhaps seeking the assistance of Chairman Hunter and Ranking Member Skelton -- that require there be in the officer evaluation reports, base commanders, that TAP be done correctly.
    It is not now.  So sometimes it is 3 hours and sometimes it is 3 days.  Where it is done correctly, it is of tremendous assistance, and the same for DTAP.  Unfortunately for Guard and Reservists, it is done the least, just like medical care for Guard and Reservists, which is deeply concerning.  The Guard/Reserve caucus is very uneven, particularly once you get away from the flagpole.
    Two other things, if I may:
    I think that many people have tried and have to -- on USERRA, the reemployment rights -- to get it right.  But there have been a lot more complaints, and there haven�t been proactive efforts, even though they were suggested 3 years ago to the Secretary, about mailing out or working with the States to mail out to the unemployment list to inform employers.  If they know their law, they are much more likely to obey it, and you cut down on that.
    Second is moving with real alacrity where there is violation.  Frankly, one of the worst violators in this war -- just like in the first Gulf War -- is State and local government.
    The fact that the city of Columbus, Ohio -- that a young man committed suicide because that issue couldn�t be resolved in time is absolutely shameful.  From our point of view, that mayor needs to be accountable at the polls, and other people up the line, not only in city government, but within the Federal Government in the structure that is supposed to administer USERRA; somebody needs to be held accountable and explain why this took so damn long.
    The third thing, if I may add it, is also the responsibilities of the Veterans Employment and Training Service to play a role in the enforcement of Veterans Preference.  If you talk to the Office of Personnel Management, they say it is not their job.  You talk to VETS, and they say it is not their job.  We are looking for whoever it is wandering somewhere in the depths and the bowels of the Federal bureaucracy of Washington, D.C., whose job it is to enforce Veterans Preference.  Without that, it is more in absence, and it is a joke.
    Not that many people at this table and many fine people, Members of Congress on both sides of the Hill, haven�t tried, but we still do not have meaningful Veterans Preference.  In fact, it is eroding even further today when it is needed most by the young men and women returning home.
    Thank you, sir.
    Ms. Herseth.  I have no further questions.  Thank you, Mr. Chairman.
    Mr. Boozman.  Thank you.
    One follow-up, very quickly:  Have each of you heard from DVOPS and LVERs about being required to do non-VETS work?
    Mr. Jones.  We know that there is an increasing number of DVOPs and LVERs who are hired part-time, and the remainder of their time is directed at related employment services.  In many instances, what we hear from these folks is that the secondary part-time is taking much more of their commitment than they have been tasked to do for DVOPs.
    If you follow me on this, they are using less and less of their time to work on the DVOP and LVER opportunities and more and more of their time, because of the management of these part-timers, to do things other than working for former military -- to assist former military.
    It is a concern of ours.  But, in general, we are fairly well pleased with the current anecdotal stories that we hear about the successes of the DVOP and LVER programs.
    We would hope that there would be an effort to establish more measurable outcomes so that, yes, we could boost the juice, the resources available to these folks.  Yes, we are concerned about the modest levels of appropriations over the years.  But you really have to have something measurable for Representatives of the United States to take back to their taxpayers and say, We are going to increase these services because they are effective.
    So we are looking for the boost in measures so that you can do the right thing for DVOPs and LVERs, which is to increase their funding.
    Mr. Magill.  We have heard some accounts.  It is not the norm, but we just heard isolated instances.
    Mr. Blake.  Mr. Chairman, in a meeting a month or so ago with some representatives of the National Association of State Workforce Agencies, some of the representatives there from different States voiced concern that staff in their office who were DVOPs and LVERs were being pulled away to serve other employment functions.  In a few cases, it was to the extreme, as if their veterans employment responsibilities became secondary to the responsibilities they were being pulled away to do.  
    So, that is kind of hearing it straight from the horse�s mouth; and from our perspective -- and to say that, you know, that concern was addressed from that organization particularly.
    Mr. Lawrence.  I would just reiterate what Carl and Jim have stated.
    Many DVOPs are, of course, members of the DAV.  During our midwinter conference in March, I heard a couple of anecdotes of similar types of use of DVOP time.
    Mr. Gaytan.  I can say the American Legion is hearing the same things.  I just had a phone conversation yesterday and this morning from the same LVER, expressing the same concern and letting me know that the main focus of his job right now is not to get jobs for veterans, it is to make sure that the administrative support of the office is being taken care of.  A lot of the other ancillary roles that that office takes on are falling in his lap.
    That is just one specific instance that I have heard in the past couple of days.  But -- I can�t say it is a blanket problem nationwide, but there are specific pockets where this is occurring.
    Mr. Weidman.  It is a -- if I may suggest, Mr. Chairman, it is a systemic problem, and it has been a problem for many years.  But there was always the monitoring.  As the -- what used to be called the Wagner/Peyser money, the money for the regular employment service has diminished every year since 1981, up through today.
    The pressure to utilize the Disabled Veteran Outreach Program specialist andto serve nonvets and to serve functions has grown every year -- has grown every year.  So, one, it is, in some cases -- in many cases, the office managers are not terrible people, they just are under such key pressure.  They get fired if they have big problems with people management within the office, and people start -- and it makes a scene over and over again and hits the local newspaper.  They get fired if they don�t pay Unemployment Insurance on time.
    Nobody gets hurt at all, no office manager, because they didn�t get a vet a job.
    That is the systemic problem to the whole issue, and perhaps we need to look hard at places veterans, specialist staff in there.  Given the day of -- today, where you can go anywhere with a laptop, and you can do that supervision and you don�t have to be at a desk in the corner of an office.  Perhaps its time to revisit this model altogether, sir.
    Thank you.
    Mr. Boozman.  Have you got anything else?
    Ms. Herseth.  Just to follow up on this.  Is this part of the reason -- I can�t remember which one of you it was, and maybe it was more than one, suggested that we have a separate veterans One-Stop because we have -- it isn�t a problem in all States, you have been complimentary to South Dakota, and I was just at the Northern Hills Career Center where that didn�t seem to be a problem.
    Yet, if we have got a -- the issue with the One-Stop Career Centers is that it is that type of environment in which it is more likely that the time and the resources are being diverted away from the veterans --  you kind of nodded that that was -- you were agreeing with my statement.
    I am sorry, I am not articulating it right now very well.  But is this a concern you have about the One-Stop Career Centers in particular?
    Mr. Gaytan.  I just want to express what Rick already brought up about the Wagner/Peyser Act and the reduction in funding for that.  That reduction causes the offices to lean harder on the DVOPs and LVERs.
    The Wagner/Peyser Act is not being as effective as it should be; therefore, they are almost forced to put more job responsibilities on DVOPs and LVERs, that aren�t veteran-specific.
    That office has a mission as an office, regardless of veterans needing jobs.  Veterans needing jobs are the role of the DVOPs and LVERs.  But as an office and as a One-Stop Center as a whole, they are operating with their own requirements and goals that they need to achieve.  If they need to lean on the DVOPs and LVERs to achieve overall mission of meeting their requirements and providing employment to nonveteran-specific individuals, that is what they are doing.
    That is why you are seeing the DVOPs and LVERs doing more than just seeking or providing job opportunities for veterans, but doing more administrative roles in the office and doing more widespread issues in that office.
    Mr. Weidman.  It is the pressure, it is structural pressure in that sense.  If you have got -- you have your mortarmen in an infantry platoon, but if you are down to half-strength, everybody has got to do two or three jobs.
    So some of it is from that point of view.  The question is, do you need to do that anymore -- and about keeping people in an office.
    Now, because of critical mass, you are not going to be able to do a Veterans One-Stop, I don�t think, probably in South Dakota.  You could in Little Rock, possibly in Fort Smith, but you couldn�t in most of Arkansas, because there is just not enough critical mass of returnees.
    What you could do is a variation on it.  When a Reserve unit comes together, then it comes together in that community, involving members of that community, leaders of that community.
    One of the things that is not inconsiderable -- that has never been truly studied by VETS or anybody else, I might add -- is the corporate culture that exists in each and every State.  In South Dakota, North Dakota it is excellent towards veterans as getting priority.  North and South Carolina, North and South Carolina, it is excellent.  Veterans really get priority of service there; they literally get put to the head of the line in South Carolina.
    Many other States, like Florida, I am ashamed to say, New York, Ohio, many other places, it really varies on the office manager and, in some cases, not at all.  The cause that DVET, the U.S. DVET, doesn�t have many cards to play -- and as was pointed out, their State counterpart State programs administrator often is powerless in regards to the office managers.
    Nobody is enforcing the law, and maybe the only way to do it is to have a poll strategy based on actual performance measures and money to follow that right down to the local office or One-Stop Center.
    Mr. Boozman.  Thank you all so much for your testimony and your insight.  Like I say, you all are excused, and again, we certainly appreciate you all being here.  Thank you very much.
    Mr. Weidman.  Thank you, Mr. Chairman.
    Mr. Boozman.  Our second panel is a diverse group comprised of Mr. Sigurd Nilsen from GAO, Ms. Maren Daley from the National Association of State Workforce Agencies, Mr. We Poriotis -- I�m sorry, Wes.  That was a typographical error where we had We, but when you put Poriotis at the back, you can kind of see that -- you would wonder if there might not be a �We� in front.
    Mr. Poriotis.  Two sessions ago I was introduced as Mr. Psoriasis.
    Mr. Boozman.  Is Poriotis -- am I correct in that?  Is that close?  Okay, very good.  Chairman of Wesley, Brown and Bartle and the Executive Placement Firm; and Ms. Daley, from State Workforce Agencies
    Okay.  Let�s go ahead and get started then with Mr. Nilsen. 


STATEMENTS OF SIGURD R. NILSEN, DIRECTOR, EDUCA-
    TION, WORKFORCE, AND INCOME SECURITY ISSUES, 
    U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
    WESLEY PORIOTIS, CHIEF EXECUTIVE OFFICER, THE
    CENTER FOR MILITARY AND PRIVATE SECTOR INITIA-
    TIVE, INC.; AND MAREN DALEY, VETERANS� AFFAIRS
    COMMITTEE, CHAIR, NATIONAL ASSOCIATION OF 
    STATE WORKFORCE AGENCIES 

STATEMENT OF SIGURD R. NILSEN

    Mr. Nilsen.  Thank you, Chairman Boozman, and Ranking Member Herseth -- who just left, I guess.  I am pleased to be here today to talk about our preliminary observations on the status of implementation and some key provisions of the Jobs for Veterans Act.  In particular, my testimony today addresses three aspects of the progress that Labor�s Veterans� Employment and Training Service has made in implementing changes affecting its key programs that has changed as a result of JVA.
    First, the separation of DVOP�s and LVER�s roles and responsibilities; second, VETS� accountability system for DVOP and LVER staff; and third, VETS� system for monitoring DVOP and LVER performance.
    First, with regard to the changed roles for DVOPs and LVERs, VETS has taken action to implement the changes to the DVOP and LVER programs.  Through its policy, guidance letters and training, VETS has clarified the DVOP and LVER�s new functions and the use of part-time positions for DVOPs.
    According to their fiscal year 2005 State plans, States will have about 2,900 DVOP and LVER staff; 23 States will use the new flexibility under JVA to have half-time DVOPs, who will comprise about 18 percent of the total DVOP staff.  Some States plan to use half-time DVOPs extensively.  For example, South Dakota plans to have 87 percent of its DVOPs be half time.
    Labor officials acknowledge that integration of DVOP and LVER staff into one-stop centers has been a persistent challenge because of entrenched cultures, yet integration is occurring in some locations.  For example, one DVOP we interviewed said that the veterans program is highly integrated within the WIA program in her local one-stop with both sharing case management responsibilities.  In cases where there is little integration, one reason cited was that the other staff at the one-stops were not educated or trained on serving veterans.
    Second, with regard to the new performance system, VETS has implemented some JVA changes to the accountability system, but it is still in transition.  Prior to JVA, performance measures placed more emphasis on process-oriented measures, measures that simply track services provided to veterans, and not on the employment outcomes achieved for veterans.
    Beginning on July 1, 2003, VETS adopted performance measures that are similar to those in WIA, or the Workforce Investment Act.  Three WIA-based measures are veterans that entered employment, retention in employment at 6 months, and job seeker satisfaction.  In addition, VETS tracked employment -- entered employment following receipt of staff-assisted services, and entered employment following receipt of case management.  Like WIA, placement and earnings data come from the unemployment insurance wage reporting system.
    VETS reported that the DVOP and LVER program met Labor�s goals for the entered employment rate of 58 percent for all eligible veterans in program year 2003; however, they fell short of their goal of 60 percent for the employment rate for disabled veterans, achieving only a 53 percent employment rate.  VETS reported that they exceeded the employment retention goals, however.
    VETS officials told us that the measures will change again this July when VETS will adopt OMB�s new common measures.  While the new common measures afford some advantages over existing measures, the frequent shifts in focus have made it difficult to collect comparable data that can be used to establish a pattern of performance for the DVOP and LVER programs.  As a result, VETS anticipates that it will take at least until July 2007 to collect the necessary trend data to establish the minimum standard for the entered employment rate that all States will be expected to meet.
    Finally, with respect to JVA�s requirements to monitor the DVOP and LVER programs, VETS has shifted greater responsibility for monitoring program performance to the State level.  And VETS� monitoring role continues to evolve from enforcer to partner in achieving State goals.  In 2004, VETS reviewed all State plans and conducted on-site monitoring reviews of 20 percent of local offices in each State.
    Now that VETS has completed its first year under the new performance accountability system, it is unclear how it will use its monitoring results to improve DVOP and LVER program performance.  VETS officials have not provided a consistent methodology to incorporate and analyze relative performance among the local offices, States and regional offices.  But VETS and ETA are working on sharing the results of monitoring efforts, coordinating corrective actions, and taking a joint approach to program oversight.
    Mr. Chairman, this concludes my prepared remarks, and I will be happy to answer any questions you or Ranking Member Herseth may have.
    Mr. Boozman.  Thank you, sir.

    [The statement of Mr. Nilsen appears on p. 90.]

    Mr. Boozman.  Let�s have Ms. Daley now.  You can go ahead.

STATEMENT OF MAREN DALEY

    Ms. Daley.  Good afternoon, Chairman Boozman, Ranking Member Herseth.  On behalf of the National Association of State Workforce Agencies, I thank the Subcommittee for the opportunity to share information on the contributions of our members in strengthening the Nation�s economy by linking veterans to jobs.
    The members of our association constitute State leaders of the publicly funded workforce system vital to meeting the employment needs of veterans through the Disabled Vet Outreach Program and the Local Veterans Employment Representative Program.
    Before sharing NASWA�s recommendations on how to improve workforce services for veterans, I want to acknowledge the strong working relationship between NASWA and the Veterans� Employment and Training Service.  NASWA and VETS have worked together since the enactment of the Jobs for Veterans Act to ensure the newly developed regulatory requirements improve the administration of workforce programs and service to veterans.  NASWA is grateful to VETS staff that have graciously donated time to communicate and listen to NASWA members throughout implementation of the Jobs for Veterans Act.
    NASWA members are committed to providing the highest-quality workforce services to our Nation�s veterans, National Guard members and reservists.  The workforce system�s top priority is assisting veterans, and disabled veterans in particular, in making the transition from the military to the workplace.  Given this priority of service in our capacity as workforce program administrators, we have identified additional issues required for improving workforce services, and the following are our recommendations:
    Congress should appropriate an additional amount for the DVOP and LVER programs proportionate to the increase in the number of veterans requiring service upon their return from ongoing conflicts, and also to adjust for inflation.  We recognize this Subcommittee does not determine annual appropriations; however, we encourage you to urge your colleagues on the Appropriations Committee to fund this program adequately.  I also encourage you to consider support for additional training funds dedicated to providing veterans the skills required for successful transition into the civilian workplace.
    The Subcommittee should amend the Jobs for Veterans Act to transition the DVOP and LVER funding cycle from a Federal fiscal year to a program year.  Program year supports integration of VETS programs into the WIA and one-stop systems, which helps align funding, planning and performance with the same cycle on which the one-stop partners operate.
    The Subcommittee should set adequate State allocation funding levels.  The new State funding formula, under the Jobs for Veterans Act, caused wide fluctuations to individual State funding, creating unintended iniquities.
    Eligibility for incentive award grants under the Jobs for Veterans Act should be expanded to include workforce system offices.  The benefits of incentive awards for exemplary service to veterans by individual employees have been limited by conflicts with State law and State directives that could be eliminated by congressional action to expand eligibility to offices, in addition to individuals.
    NASWA encourages the Department of Labor to improve and simplify its guidance to the workforce system on delivery of prioritized service to veterans.  Although the Employment and Training Administration has provided workforce program administrators guidance on providing veterans prioritized service, it has not been promoted adequately, and its importance has not been sufficiently relayed to some service providers.
    Under the Transitional Assistance Program, or TAP, designed to provide information and services to military personnel preparing to transition from military service to civilian careers, performance measures are restricted to veterans, defined as individuals who have already been discharged for military service.  NASWA recommends the TAP performance measures include military personnel who have a definite date for discharge in the near future.
    NASWA believes Congress should reconsider the Jobs for Veterans Act provision requiring the Secretary of Labor to assign a director for Veterans� Employment and Training to each State.  I know of no other Federal workforce program requiring Federal oversight staff stationed in each State.
    Finally, the President�s National Hire Veterans Committee established by the Jobs for Veterans Act got off to a slow start, but now has an active membership of major business representatives.  NASWA supports the Committee�s efforts to develop a national campaign to advise employers on the benefits of hiring veterans.  The Hire Vets First Campaign established by the Committee is an excellent effort to inform employers and provide a connection to State and local workforce development resources.  The Committee has ensured NASWA it will refer employers to State Websites, local one-stop career centers, and the DVOP and LVER staff.
    We look forward to working with you and other members of this Subcommittee and Congress to provide the necessary workforce services to our Nation�s veterans.  Thank you, and I am happy to answer your questions.
    Mr. Boozman.  Thank you.  

    [The statement of Ms. Daley appears on p. 106.]

    Mr. Boozman.  Mr. Poriotis.

STATEMENT OF WESLEY PORIOTIS

    Mr. Poriotis.  Yes, Mr. Chairman, Ranking Member Herseth.  When I was originally invited to testify -- as you can see from my written testimony -- before this panel on March 17th, St. Patrick�s Day, I was so excited that I ran out and bought a green tie and tried to change my name to O�Poriotis, but my 84 -- now 85-year-old Greek father was so relieved to hear that the date was changed to May 12th that he said, it is good that they changed the date and not your name.
    However, I am equally pleased, Mr. Chairman, to be here today, May 12th, which, as any good New Yorker should be able to tell you, is the 80th anniversary of the birth of one of our Nation�s great unsung intellectuals and philosophers, Lawrence Peter Berra, better known in many circles as Yogi Berra.  So let me start by saying in the words of Yogi Berra that testifying before you today feels like deja vu all over again.
    So, Mr. Chairman, this is the third time since 2002 that I have had the honor to sit at this table to testify on ways to enhance the Federal Government�s role in helping veterans secure quality employment opportunities.
    Eleven years ago, at the request of the Joint Chiefs of Staff, I produced a report analyzing how veterans were faring in their transition from the military to civilian employment, especially in overcoming deselective biases in accessing and competing on a level playing field for the quality opportunities in the nondefense sector, the growth sectors of our economy.  Sadly at that time I found that veterans employment and career transition services were inadequate and outdated.  Based upon a scientific survey and other research, I made almost a dozen recommendations to the Joint Chiefs on how to improve Federal veterans employment programs.
    Furthermore, I founded the Center for Military and Private Sector Initiatives, a 501(c)(3), to help pursue implementation of those recommendations and other initiatives to improve employment prospects for transitioning military, veterans and their families; how to market them; how to brand them; how to create a pull and overcome the push that now exists in most employment circles.  Unfortunately what I am about to report in terms of the sorry state of Federal veteran employment programs may sound to you like the Yogi Berra comment, deja vu all over again.
    In the decade since I gave the Joint Chiefs my recommendation and personally met with the President to address this issue, VETS has made some reforms, improved some services and expanded its budget, but at the end of the day it is still a fair characterization to say that the Veterans� Employment and Training Services neither employs, nor trains, nor adequately services veterans� employment needs.
    Mr. Chairman, the problem at its core is that VETS is a government program trying to succeed in the private sector with government solutions.  Let me give you a perfect example.  Last week the Chairman of the President�s National Hire a Veteran Committee testified about the accomplishments of his Committee.  I read his statement carefully, and here is what I found.  In the 2-1/2 years since the Committee was authorized, the only measurable achievement he could enumerate was the signing of 28 Hire a Veteran Month proclamations by State Governors, with another 15 proclamations to be signed at the end of June this year.  That is how government approaches a problem:  Create a committee, sign a proclamation.
    Let me share how the private sector approaches the same problem.  After a year of planning, together with General Tommy Franks and Roger Chapin, the founder of A Salute to America�s Heroes, we brought 138 of the most severely wounded in the war on terrorism and their families, free of charge to them, to Orlando and Disney World for a 3-day retreat, conference and work session to help them on their road to recovery.  In addition to numerous programs to heal their spirit and provide them with tangible and material assistance, we provided them with houses and refurbished their houses.  As an example, we organized a comprehensive program to meet and provide employment navigation and counsel with each and every military servicemember and his or her spouse, because often it is not so much the military member acquiring the job, it is often the spouse is more eligible for employment and can bring in the dollars to the home, and we should focus on them.
    Our program utilized what we call a working group -- and I think we should take note of this -- of hero/coach counselors and job developers, especially for disabled veterans.  They go into a veteran�s home, determine a career track, meet with local employers to literally get the veteran an interview.  What we have missed here in all of these programs, we have to get the veteran an interview.  The hero/coach counselor in some cases helps in the negotiation, the closing, and in essence becomes the champion for the veteran payload to the employment target.
    This combination of experienced employment navigation, plus the actual employer relationship building and opening up what I call the hidden job market, the quality job market, the growth job market, goes through the pain of placement, which is the true pain that the VETS, the DVOPs and LVERs avoid.  And it is not because they avoid it, it is because they are not tasked to do it.
    While we were meeting individually with these brave men and women, 20 VETS representatives were in another room doing what they are tasked and trained to do, hand out written information, refer veterans to Websites, and check off the boxes on their to-do lists.
    Mr. Chairman, I don�t blame the men and women in the field working as LVERs and DVOPs.  They are doing the job they were designed.  Some of them are remarkable, caring, compassionate and effective people; yet, as Mr. Weidman said earlier, they have no hard metrics upon which their performance is judged.
    Unemployment and the immeasurable yet omnipresent underemployment has reached such unacceptable proportions that someone like Jim Nicholson, the new Secretary of the VA, recently met with me at the request of some corporate executives to hone in on the 24 percent unemployment for young veterans.  He -- even though he is not statutorily responsible for employment, Labor is -- is spending an enormous amount of time marketing and aggressively trying to open up doors for veterans.  He said that he would spend his time with corporate executives to market and influence the influencers to make a real market in this growth economy for jobs for veterans.
    Unfortunately, this contrasts dramatically with VETS leadership, who are so busy with their internal meetings, their internal discussions, that they can�t get out of their own way to meet the enemy.  And the enemy is corporate America, who basically, as said in the former panel, are deselective by their nature.  There has been a distancing between the military and them.  They were not naturally inclusive of this military as a workforce.
    In August of 2003, Jack Welch�s successor, Jeff Immelt, spent 2-1/2 hours with us.  We invited VETS leadership to come with us; they were too busy to come.  Immelt basically said he would bring other corporate executives together and have his own human resources team bring other HR folks together to really influence the influencers in the hiring community to bring these veterans and these valuable assets across the table.
    The fact is we can never solve a private sector problem with government approaches and programs.  Yogi Berra again said, it ain�t over `til it�s over.  But respectfully, Mr. Chairman, in the case of VETS, with regard to quality employment, opportunities, career advancement, I believe its time is over.
    One of America�s most important entrepreneurs recently gave a remarkable speech on education at a summit meeting of our Nation�s Governors.  Bill Gates minced no words.  American high schools are obsolete.  By obsolete I don�t just mean that our high schools are broken, flawed or underfunded.  By obsolete I mean that our high schools, even when they are working exactly as designed, cannot teach our kids what they need to know today.
    Mr. Chairman, we merely need to substitute Mr. Gates� words on obsolete high schools with the obsolete Veterans� Employment and Training Service.  Rather than reforming and coping with an obsolete Federal agency, we need to seriously develop a blueprint that reconsiders the entire notion of government-sponsored programs to help veterans get jobs in the private sector.
    If Mr. Gates can be so blunt in crying out for a redesign, we can do no less for our veterans.  We need to evaluate the efficacy of outsourcing the VETS function, or at least significant parts of that function.  An outsourced entity would be mandated to carry the veterans� employment football across the goal line.  At present, the veterans� employment payload is simply not meeting the target.  It is like a boxer who moves deftly, jabs, throws powerful uppercuts, but never actually hits his opponent.  Unless we can task people to go out and find the hidden job market among private sector employers, we will never succeed.  Until they are measured by how many jobs they find for veterans rather than how many daily tasks they perform, success will continue to elude us.
    At the very least, I would recommend that this Committee authorize pilot programs that allow the private sector to infuse its knowledge and energy into the noble task -- and I say it is noble -- of finding high-quality jobs for the men and women who have so honorably worn the uniform.  To create jobs we need to unleash the talent and creativity of the private sector.  Similarly, if we want to find quality new and existing jobs, we also need to unleash the private sector.
    Mr. Chairman, in my closing remarks -- and I thank you for letting me go over -- I thought about Teddy Roosevelt�s famous political barnstorming often called �the bully pulpit.�  we need to be bold and reach out for a head of VETS like Jack Welch, Dick Grasso of the New York Stock Exchange, Paine Webber�s Joe Grano, Lou Gerstner of IBM fame, somebody that has the corporate juice who can influence the influencers and get his peers to come to the table on this issue.  Let the able administrators within VETS do what they do ably, and that is administer, But for a dollar in salary and the capacity to leave a personal legacy for infusing the treasure of military service into the American business bloodstream, we can recruit a passionate corporate leader to head VETS and forge a bully pulpit for veterans� employment.  It is quite probable.
    Let me close, Mr. Chairman, with one of my favorite Yogisms:  When you come to a fork in the road, take it.  So to put that another way, the Veterans� Employment and Training Services is done, stick a fork in it, move on, and let�s create a new public/private partnership to help veterans actually get quality jobs.
    Mr. Boozman.  Thank you very much.

    [The statement of Mr. Poriotis appears on p. 113.]

    Mr. Boozman.  Mr. Nilsen, you mention in your testimony that the DVOP and LVER program had been reported to meet their goal of 58 percent.
    Mr. Nilsen.  Yes.
    Mr. Boozman.  Is that correct?
    Mr. Nilsen.  That is correct.
    Mr. Boozman.  One of the criticisms from the other panel was whenever anybody walks in and fills out a form, then later get a job from some other means, they are still considered as hired through that program.  Can you respond to that criticism?
    Mr. Nilsen.  Yes, that is true.  We don�t know exactly why that person got that job.  I think there are a couple things.  One, you need good measures on a program to know what is happening with the people flowing through that program.  One of the things that was said on the earlier panel was when WIA was passed in 1998, they did away with registering everybody who comes through the door of a one-stop.  Our work -- we have done extensive work on the Workforce Investment Act, and GAO has recommended that they go back to registering everybody who comes through the door so that you know what you are measuring.  Right now you can manage those outcomes very easily by selecting who you register for services, and then later determine when you decide to exit them. 
    The common measures that are being put into effect this coming July also will require that everybody be registered.  With that you will know who is servicing all veterans who come through a one-stop, because not all veterans are served by DVOPs and LVERs.  Many people coming through a one-stop get a job through either self-directed services at a one-stop, or because of services from somebody else in the one-stop.
    In order to be able to assess that a veteran got a job because of the assistance that was provided to them, you need to really conduct a rigorous evaluation of the program.  You can�t do it with performance measures.  Performance measures are indicators, but you need a rigorous evaluation to determine what did the veteran -- what kind of services veterans got and what happened as a result, and compare them to what would happen without those kinds of services.
    So it is a long way of saying -- there are two issues:  One, you have to know what is happening to everybody who comes through the door; secondly, you need to do an evaluation, perhaps in conjunction with the Employment and Training Administration, to see what is happening to everybody who comes through the door at a one-stop, and why -- what outcomes do they achieve, and what were the services they were provided so you can associate services with outcomes.
    Mr. Boozman.  I agree.  It looks to me like if nothing were done, you are just basically writing your name on a sheet of paper.  If nothing were done, there would be some employment that took place, and then compare that rate with the rate that is actually published.  And like I said, that, to me, is pretty basic; then you really know what that group is actually doing versus the other.
    I don�t know how hard it would be to estimate the amount of employment, if the program didn�t exist, but that really does need to be done.  I mean, do you agree?
    Mr. Nilsen.  Yes, I do.
    Mr. Boozman.  Very much.
    In your testimony, Ms. Daley, concerning inadequate funding, you express excessive oversight for the DVOPS and LVER program, reduction of services for veterans, and yet we constantly hear about the DVOPS and LVERs being tasked by local managers to do nonveterans tasks.
    Ms. Daley.  On behalf of NASWA, we recognize the concern regarding DVOPs and LVERs occasionally performing services in one-stop environments not directly related to services for veterans, but we understand these instances to be limited, and, when identified, immediately addressed to ensure full attention is provided to the veterans.  So as we have explored this issue, we have found it to be more limited in nature than to be a massive problem. 
    We do not believe these limited situations detract from the need for adequate funding for the DVOP or LVER programs.  State allocations under these programs have increased by approximately $3.9 million in 8 years.  This amount represents just over 1 year�s increase in inflationary costs.
    We also have a major concern with the funding for training for veterans.  The Veterans� Workforce Investment Program, the funding dedicated to training for veterans has been flat-funded over 5 years.  Last year 7-1/2 million served only 12 States.
    The workplace our veterans return to today is totally different than the one of 20, 10 or 5 years ago.  Veterans in many cases require more training and skills than nonveterans to maintain their competitiveness in a dynamic workplace.
    NASWA is a partner with the administration in its High Growth Job Training Initiative, and this effort is to make the system more proactive in responding to the workforce needs of businesses, and understanding the workload as DVOPs and LVERs become stronger advocates for veterans in searching out opportunities in high-growth businesses.
    So in summary, Mr. Chairman, we recognize this to be a problem limited in scope, readily addressed, and yet there are increasing needs for servicing of veterans that require increase in funding, both on the staffing side for DVOPs and LVERs, and particularly on the training side, to enable our veterans to step into good careers in today�s economy.
    Mr. Boozman.  Mr. Poriotis, you, in your testimony, talked about what is needed.  What kind of attributes, what type of individual would you consider appropriate to be the next as ASVET?
    Mr. Poriotis.  I think you have to have someone who has taken a lethargic organization and rebranded it.  I mean, we fail to remember often that when Lou Gersten took over IBM, it was next to being broken up.  The board of directors of IBMwanted to break it up and sell it off in pieces.  He saw that one entity, with the power of rebranding itself to its customers, would thrive again, and now he is a legend.  So I think someone has to have the passion.  They have to also obviously have the ego to have gotten to a senior role in the first place.
    When you think of people like Jack Welch, you know, who basically -- when he took over General Electric, they called him Nuclear Jack because he basically was decimating the organization, and he rebuilt it from scratch.
    I would say that the characteristics are a passion to leave a legacy, and we need to take their energies and efforts -- when -- last May I brought 14 corporate executives in front of the House Veterans� Affairs Committee to speak to the value of military service, because I firmly believe that, regardless of the money you throw at VETS, regardless of the resources you add to it, unless there is the passion, unless there is the rebranding of military services valuable to the nondefense growth sector, that we will be back here 10 years from now talking about the same thing.
    So in direct answer to your question, someone who has taken a brand -- and military service is a brand that has lost its value, it has lost its equity, as the consumer package goods and advertising people say.  I brought 20 chairmen and CEOs of advertising agencies together, people who brought Pepsi to the marketplace, people who brought BMW, and I said, take military service, think of it as a brand; how would you relaunch it to the private sector?  And one of the people there ran the Volvo account for a major agency, and he said, let me ask you a question; you want to buy a Volvo because why?  And most of the advertising folks knew immediately, because it is safe.  So equity in a brand is safe?  You want to hire a military person or a veteran; why?  We use all of the intangibles.  They are great, they have leadership, they have quality and integrity.  But the American employer outside the defense sector in the government will want to hire them because it adds to the P and L, to the bottom line.
    We haven�t rebranded military service toward that goal.  So I would try to induce a CEO, like a Jack Welch, or a Gerstner, or a Joe Grano.  They are worth hundreds of millions.  They are doing nothing now, playing a little golf, and their egos are so big they don�t fill this room.  Let�s rechannel this and get them to drive this to their peers.  And I would say passion, rebuilding that brand, and the desire to leave a legacy.
    Mr. Boozman.  Thank you.
    Ms. Herseth.
    Ms. Herseth.  Let me just start with a follow-up then, Mr. Poriotis, I appreciate your testimony, I appreciate your passion on this issue, so let me just ask a couple of questions here.
    First, on this whole issue of injecting the private sector, would you agree with the testimony of the prior panel that it might help to assess the corporate culture in each State, because some are better than others?  That will help us then -- whether there is a move toward branding military valor, and don�t we have to first have this assessment?  Because I don�t know that across the aboard we have got the folks that are quite as passionate as you in terms of the role that is going to be played.
    And I understand exactly what you are saying in terms of what we do in a government program and how expansive they can be, and how people are managing their time, and clearly the consistent testimony today about a lack of measures for performance that can lead to the accountability that all of us desire here.  But would you agree that some assessment of the corporate culture is required?
    Mr. Poriotis.  Congresswoman Herseth, can you imagine in the private sector to spend $200 million with an entity, a business unit, and they not have done any corporate perception audits to determine the behavioral blockages, or where the good, bad and the ugly are?  I don�t think they need more money.  They need to rechannel the money based on where the problem is.  We don�t even know where the problems are.
    So, yes, Mr. Weidman hit about the difference between the Carolinas, Ohio and Florida, but we haven�t done a definitive perception audit.  The first thing one would do in a behavioral analysis is to hold focus group sessions with three levels of management.  So we have to get inside that management, have one-on-ones with corporate executives.  We have to use the society of human resources management where there are 200,000 human resources executives, connect with them and find out how they perceive military service.  Right now I would think, in a nondefense sector, if they perceive it, they perceive it all as being those folks in the silo who defend us, but we are not going to bring them across the threshold to high-quality opportunity with career mobility.
    The other amazing part of the perception lack is the fact that we don�t know where the 4 million are who evolved out of -- in the first Gulf War.  When I asked Mr. Juarbe, the head of VETS, last year, I said, where are they?  He said, well, we are doing that.  I said, where are those you have placed?  We don�t have an alumni network.  Any good college would have an alumni network.  We don�t have a network of those with former military service background in business so we could link the individual coming out immediately with somebody in that particular field.
    And secondly, to add one little sidebar, the Army is having a terrific time now recruiting folks.  I say every time a person comes in to be recruited, he or she is connected with someone in the private sector as an external mentor.  They may not work there, but at least it guides them through.  And right now they could equate the 4, 5, 7 years of service with the equivalent of a baccalaureate and the equivalent of a private sector platform after service.  We have a terrific problem because nobody is approaching this with the intelligence of a business.
    Ms. Herseth.  And you make a number of interesting points, creative points.  And I do agree that the business community, the business environment, can allow us important lessons in instructing how we go about to meet these types of performance measures, to create them and then meet those standards.
    And going back, though, to the whole issue of the perception of employers, whether they are large corporations, or whether they are a small or midsized business, I would just say that part of what the recent GAO here, Mr. Nilsen, on employers being aware of certain programs, one-stop career centers, we do have to make this transition of just employers being aware of a program, aware of a service to what more data do we need in terms of what is driving the employer�s decisions here?  And I think that gets exactly kind of a step further under the surface of what are the employers� perceptions then of the different clientele that the one-stop career centers are servicing?  So I just want to make that comment before asking one other question to you.
    I may have tied it in, actually, with some of my comments here, but the other issue I want to get at is the Internet services that are being incorporated.  Has there been any integration of a tracking or a monitoring system, any other measure, as more and more individuals, and in our case here specifically veterans, are using the Internet through the one-stop career centers?  I mean, even though we are lacking a performance measure, has anything been done in terms of that service to track and monitor that is different from when someone comes in physically to the one-stop career center location?
    Mr. Nilsen.  I think that varies by State.  Many States don�t want to -- if people are accessing services through the Internet, many States don�t want to be an impediment by requiring people to register, put in a Social Security number so then they can track them.  What most States, it is my impression, do is sort of track hits on their Websites.  But they feel sometimes that if they require people to register, they are going to discourage people from using the service, so not many States do that.
    Mr. Poriotis.  And if you realize how a talent acquisition operation works in a major corporation, they may have 150 to 300 recruiters.  Most of the low-level recruiters who are tasked to fill positions will use Monster Board, Jobs.com, Career Builder, but you are still begging the question.  The vice president of human resources has to be confronted and brought to Jesus on the value of military service.
    The problem with the one-stop in the VETS operations, they are not inside the strategic tents when the talent and acquisition strategy is being made.  Those vice presidents make the talent acquisition strategy the first of the year.  And you know what?  If you are not in the strategic tent when they are determining which colleges they are going to, which workforce organizations they are going to go to, you are overlooked.
    I talked to 12 human resources vice presidents before my last testimony.  They have either never heard of VETS, or, when they had called them, couldn�t get serviced in a useful manner, or, three, didn�t think of military service as being valuable to their workforce because they had never understood the theoretical translation of the background, not just the literal translation.
    Ms. Herseth.  I appreciate that.  Again, we will have to have more meetings with you to pick your brain on some other -- and you are coming at a very interesting angle, and I think we have a lot more to discuss.  I know Mr. McWilliam is waiting to testify, too, and I have gone over my time, but just one more question to you.
    Based on your testimony, because we are going to be asking our next witness a little bit more of a follow-up to the President�s Hire Veterans Committee, in your opinion would be it preferable, then, to just let that Committee expire and allow for more direct interaction, work with the private sector to encourage greater links between employers and servicemembers?
    Mr. Poriotis.  I don�t think the Committee knows what marketing is.  I do think that it has misspent a lot of money.  I will tell you why.  They think their job, based on the last testimony, is to connect with the one-stop centers and the government with -- but they are not getting inside the brains and the portfolios of corporate America and inducing them to bring this over the threshold by their own desires.  They are speaking to the converted, not to the unconverted; and I don�t think they are using the Committee members well.
    Ms. Herseth.  Thank you very much.  Thank you.
    Mr. Chairman.
    Mr. Boozman.  Thank you again.  Thanks to the panel.  We appreciate your testimony; appreciate your ideas and comments. 
    Mr. Boozman.  Our next panelist, Mr. John McWilliam -- which we really do appreciate coming over and testifying before us -- Deputy Assistant Secretary for Operations and Management, Veterans� Employment and Training Service, Department of Labor.
    You are recognized, Mr. McWilliam.

STATEMENT OF JOHN M. McWILLIAM, DEPUTY 
    ASSISTANT SECRETARY FOR OPERATIONS AND 
    MANAGEMENT, VETERANS� EMPLOYMENT AND 
    TRAINING SERVICE, DEPARTMENT OF LABOR

    Mr. McWilliam.  Thank you, sir, Chairman Boozman and Ranking Member Herseth.
    The Veterans� Employment and Training Service has the mission of providing veterans with the resources and the services to succeed in the 21st century workforce.  We do this by maximizing their employment opportunities, protecting their employment rates, and meeting labor market demands.
    Our budget request for fiscal year 2006 totals $224,334,000 and covers the Jobs for Veterans State grants, the Homeless Veterans� Reintegration Program, the Veterans� Workforce Investment Program Federal administration, which includes our Federal workforce of 250 positions, transition services to the military community and the protection of servicemembers� reemployment rights, and the National Veterans� Training Institute for the training of professionals in veterans� employment and training.
    Mr. Chairman, under the Jobs for Veterans State grants, funds are made available to each State upon the approval of a State plan to support the DVOP and LVER programs.  Our fiscal year 2006 budget supports 2,334 DVOPs and LVERs located in the one-stop career centers.  In program year 2003, the public labor exchange performance measure had an entered employment rate for veterans of 58 percent.  This means that over 700,000 veterans entered employment through these services.
    The Homeless Veterans� Reintegration Program provides grants to operate employment programs that reach out to homeless veterans.  As I testified last week, this is an extremely successful program, with marked success.
    The Veterans� Workforce Integration Program offers programs designed to provide intensive services to veterans with employment barriers.  Our 2006 request will support a program of 17 grantees, serving 2,500 participants.
    Since 1990, when the Department of Labor began providing transition assistance program workshops, over 1 million separating and retiring military members have been provided job preparation assistance.  This program is a partnership between the Departments of Labor, Defense, Homeland Security and Veterans� Affairs.  We have been working with the National Guard and the Reserve on providing transition services to returning servicemembers in many States.  Our State directors coordinate with returning unit commanders to offer employment workshops at homesites that are uniquely tailored for the intended audience.  Our goal is to provide transition assistance at every location requested by the armed services and the Department of Homeland Security.
    Last October Secretary Chao set out to help America�s wounded and injured servicemembers when she launched Recovery and Employment Assistance Lifelines.  REALifelines provides wounded and injured servicemembers and their families with personal assistance to prepare them for rewarding careers.  We currently have representatives at Walter Reed and Bethesda Medical Centers; Fort Lewis, Washington; and Fort Sam Houston, with other locations to include medical holding companies to follow.
    The Department of Labor is also a key participant in the recently established Defense Military Severely Injured Joint Support Operations Center.
    Mr. Chairman, the use of the Guard and the Reserve has increased dramatically in recent years, and the Department of Labor administers and enforces The Uniform Services Employment and Reemployment Rights Act.  The Department of Defense and the Office of the Special Counsel are also charged with enforcing this act.
    Mr. Chairman, the Department of Labor leads a workforce investment system that provides veterans and other job seekers with access to training so that they can gain the skills demanded by employers and succeed in the labor market.
    We look forward to continuing to work with the Committee as we serve those who have served.  I would be pleased to respond to your questions.
    Mr. Boozman.  Thank you very much, Mr. McWilliam.  We do appreciate you coming over.

    [The statement of Mr. McWilliam appears on p. 119.]

    Mr. Boozman.  We are a Nation at war, and you have a big job, and we have got a big job in helping you do your job.  I think that I can speak for myself and the Ranking Member and the people on this Committee that we really are totally committed to providing you the resources to take care of our veterans.
    Let�s get back a little bit.  You know, you mentioned that title 38, requires VETS to submit an annual report; we haven�t gotten one since 2000.  Can you tell us a little bit about that as to who decided to skip through the reporting requirement?  Are we going to get the 2001, 2002, 2003, 2004 reports?
    Mr. McWilliam.  Mr. Chairman, I do not believe there was a conscious decision not to submit a report.  There was a term of turmoil, the reporting system had changed, the reporting performance measures had changed over the last several years, and I believe the report was just never compiled and submitted.
    We recognize that this year.  We have been working very hard to submit the report.  We now have the data.  We are just about to put it through departmental clearance and to submit it then to the Committee.  We are committed to submitting this report.  It does go back and cover the missing years for which a report was not submitted.
    Mr. Boozman.  Would it help if we amend title 38 to split the reporting due dates to better conform to the program year in fiscal year cycles?
    Mr. McWilliam.  Mr. Chairman, I believe it would help to change to the time frame -- perhaps to the May time frame to allow for the clearance procedures.  And we would very much like to work with the Committee to establish an exact date for that.
    Mr. Boozman.  The other thing is, we talked on all of the previous two panels a little bit about the accountability measures, for you really to understand what is going on.  And I think we are spending a lot of money in trying to help our veterans and things, and know that we need to spend more money, but we need to do a better job with the monies that we are spending.  We have got a goal that we are going to reach, and you are actually reaching that goal, and yet when you really think it through, to me that goal really doesn�t mean anything.  Like I said, we don�t really know what the outcome would be if we just signed a sheet of paper versus the people in the field actively pursuing, trying to work, getting people employed.  Can you respond to that?  I mean, is that something that you would try to pursue?
    And then also I would like that broken out by State, not State regions, some areas of the country.  We have got a greater concentration of returning veterans -- maybe there are reasons that we are having problems in some parts of the country because we don�t have facilities there, but what I would like to know is where the hot spots are that are not doing well; and then the other thing is where the areas are that we are doing a really good job.
    One of the things I am committed to, and I think the Ranking Member also, is to try and get a best practices so that people can benefit from the things that are working.
    Mr. McWilliam.  Mr. Chairman, we do have results by State, and we can certainly provide that to the Committee.

    [The attachment was not provided at press time.]

    Mr. McWilliam.  We have a very comprehensive performance accountability system, and if I may describe it for a moment, it starts with a State plan.  The State plans have six performance measures at the Public Labor Exchange, and those are the ones we have been discussing with earlier panels; for instance, 58 percent entered employment for all veterans going through there.
    There is also 17 negotiated measures at the State grant level, which is at the DVOP and LVER level.  And this is very specific.  It starts with entered employment for all veterans who receive services -- pardon me, all veterans who are in the career one-stop, but then it includes enter employment after receiving staff-assisted services, entered employment after receiving case management services, and then retain employment.  We do that for all veterans, we do that for the disabled veterans, and we also do a subset for the newly separated veterans.
    So there are 17 performance measures that are reviewed.  These are negotiated on a State-by-State level with our State director and the State workforce administration.  On a quarterly basis this information is reported through our State directors to the regional directors to our national office.  We look at this very closely.  Anything that is outside of tolerance, I believe plus or minus 5 percent, requires a risk analysis to be done and a corrective action to be looked at.  We provide technical assistance to that one-stop or to that State to make those corrections.
    There is also a quarterly manager�s report, Mr. Chairman, that is presented that identifies items that we have been talking about today, such as use of the veterans representatives not to service veterans.  And it also identifies best practices, because best practices are identified to the State workforce agencies so that they can be used in other agencies.
    Mr. Boozman.  Also, there was concern about block granting.  I was on the school board for 7 years prior to coming to Congress, and we had great concern in that regard.  In the sense that many of the States, as you know, now are struggling to keep their head above water, there is a tendency to shift things around.  Is that a concern for you?
    Mr. McWilliam.  Mr. Chairman, we are very concerned that under WIA Plus the veterans continue to receive priority of service and continue to achieve the performance goals that we have.  We do think it is an advantage, but there would be an additional potential of $3.2 billion in training dollars available to veterans, and also for which they would receive priority of service within the one-stops.
    As you mentioned, the performance measures would still remain in place.  The State plans would still have to be produced and submitted.  We have worked with the Employment and Training Administration to ensure that the VETS would be part of that negotiation of those performance measures for the State plan, and also in reviewing the performance under those State plans.
    Mr. Chairman, our Deputy Assistant Secretary Tom Dowd from our Employment and Training Administration is here today, if the Committee would like to ask any further questions concerning WIA Plus.
    Mr. Boozman.  The other thing that was mentioned is that we really don�t -- and you can correct me, but we really don�t have a handle as far as -- not a handle on, withdrawing the funds.  Do we need to give you some authority, or whatever, to spank hands a little bit and get more and more aggressive where you really do have the ability to make sure -- you can�t tell me that there is not somebody amongst the 50 States abusing what we are talking about.  There is just no ifs, ands or buts, it is happening someplace.
    Do we need to have greater flexibility if we see that really done in a systemic way versus an accidental way, do we need to give you the ability to come down on them -- you understand what I am saying?
    Mr. McWilliam.  I do, Mr. Chairman.  Thank you very much.  And we would very much like to talk to the Committee about those issues.  We think perhaps that might be tied to theincentive awards program, and we would like to talk to the Committee about that because it is not being abused by 29 of the States.  For various reasons they are not able to participate in that or have decided not to participate in that.
    We have found at this point, Mr. Chairman, that by providing technical assistance on the quarterly review of the reports that we receive, that we are able to influence the States to achieve their performance.
    Mr. Boozman.  Thank you.
    Ms. Herseth.
    Ms. Herseth.  Thank you, Mr. Chairman.  And thank you, Mr. McWilliam.
    Let me start out with something that happened last year.  The Appropriations Committees in both the House and the Senate issued parallel instructions to the Department of Labor regarding several veterans employment and training programs in various topics, including adding a module on homelessness prevention to the TAP curriculum, outstationing of DVOP and LVERs to the HVRP grantee sites, and implementing the jobs for veterans� priority of service mandate.  So if you could talk just generally about the steps the Department is taking in implementing the instructions.  And then specifically, has the Department issued guidance to State workforce agencies about the outstationing of DVOPs and LVERs in locations where homeless veterans congregate?  And does the Department of Labor plan to issue formal -- and promulgate formal regulations rather than just issuing the guidance letters on the priority of service mandate with the Jobs for Veterans Act?
    Mr. McWilliam.  Thank you, ma�am.  Let me -- addressing homelessness in the TAP workshops, we are working with the Department of Defense and the Department of Veterans� Affairs through the TAP Steering Group to add that.  We have not decided yet -- the group has not decided yet on what form that needs to take and how to address that, but we will keep the Committee informed on how that goes forward.
    We do provide guidance, when we issue guidance on the State plans, for the States about the outstationing of DVOPs.  Currently there are 34 DVOPs who spend a substantial portion of their time at HVRP grantees.
    Mr. McWilliam.  On priority of service, we have issued administrative notices to the States concerning how priority of service is to be implemented within each of the DOL-funded programs.  I do not know if we have a position on publishing regulations, ma�am, but we will provide that information to you.
    Ms. Herseth.  I think that is particularly important, because while much of the testimony today -- and my position, being inclined to oppose the block grants because of concern, that we would have to -- your response to the Chairman was, well, if that were to happen under WIA Plus with the block grants, we would have certain things in place as it related to priority of service.  But if it is only administrative notice, it has to be a formal regulation, in my opinion.
    And I hope that this doesn�t happen, as I said.  But in the event that it does, it highlights the importance of having those regulations in place beyond the guidance letters, beyond the administrative notice.
    Now, I want to -- I have two more questions.  If you could elaborate on efforts that VETS has made to provide outreach to returning National Guard and Reserve personnel particularly, maybe in coordination with State and National Guard and Reserve leaders -- in South Dakota, I feel that we have been very proactive in doing that and coordinating, even at the demobilization sites in many respects.  Would you elaborate on the efforts the Department of Labor has taken?
    Mr. McWilliam.  Certainly, ma�am, thank you.  South Dakota is a very good example.  We have a very proactive DVOP State director there.  We have instructed and asked all of our State directors to make contact with the State adjutants general to find out exactly what kinds of services need to be provided to returning service members.  We provide a representative of every demob site, demobilization site, who gives a short class on USERRA and reemployment, Reemployment Rights Act, and mentioning the transition services that are available for returning service members.  I believe that covers it.
    As we said, we will send a representative to every demobilization site and, pardon me, at the same time we will also offer to the unit commanders to provide them a much more extensive transition assistance program when the unit has the next drill, or it can have a period of time.  I know in some cases in South Dakota they actually put people on orders and send them to TAP down at Fort Carson so they can participate.
    Ms. Herseth.  That is right.  I am glad what you said just a minute ago in terms of the next drill, you know, after that.  Because the follow-up here is so important and these folks are getting back.  They just want to get through where they are to get home to their families.  So if we can have that ongoing outreach, that proactive attitude toward reaching out to the service members that are returning.
    My last question takes us back to the President�s National Hire Veterans� Committee.  In response to one of my questions last week during the Subcommittee�s legislative hearing, you stated that the Committee is being funded through the DVOP and LVER grant program resources.
    However, I would like you to just clarify the stream of money here.  Because when I look at the record, the House of Representatives record, May 20th, 2002, the report of this Committee, as well as a joint explanatory statement on Senate amendments to House amendments on H.R. 4015 -- and I am going to read that section for you -- it is unclear to me that there is authority to fund the Committee in such a manner.
    It reads, "This section," section 6, "would authorize 3 million to be appropriated to the Secretary of Labor from the Employment Security Administration Account of the Unemployment Trust Fund for each of the fiscal years 2003 through 2005 for the President�s National Hire Veterans Committee."
    So could you just clarify if that money is actually being taken out of that account and then put over into the grant resources for the DVOPS and LVERs and then to the Committee; or how is that working exactly?
    Mr. McWilliam.  Ma�am, the appropriation that we receive each year is from the account that you just mentioned.  It is to fund the activities that were identified in chapter 41 of Title 38, which includes the President�s National Hire Veterans Committee.  So I think we -- I think perhaps the best approach to this -- I believe we had contact with members of your staff, and I think we need to have a meeting to sit down and fully explain it.  I believe one is scheduled next week, ma�am, to understand this.
    Ms. Herseth.  If we can just get some clarification.  It just comes down to the importance of the accountability that the Chairman had mentioned at the outset; as well, as in addition to getting fully briefed on this particular component also, a more specific financial sheet that we had requested; as well as in terms of the expenses in how the expenditures are being made and targeted.
    Mr. McWilliam.  Yes, ma�am.  We have been working on that.  We have that just about ready and should put it into clearance with the Committee to submit it in the next couple of days.
    Ms. Herseth.  Thank you very much.
    Thank you, Mr. Chairman.
   Mr. Boozman.  Just a couple of things, real quick.  The Jobs for Veterans Act requires a priority of service for veterans, not only for jobs, but in the DOL training programs.  Has the VETS established training goals for each program?  If so, what are they?  Does VETS collect data on the number of veterans enrolled in the DOL training programs?
    Does the data reflect any relativity to the number of veterans seeking training and employment in a given area?
    Mr. McWilliam.  Thank you, Mr. Chairman.  As I said, we have provided guidance to everyone in all of the programs funded by Department of Labor on what priority of service means.  We do accumulate the data on how many veterans are present in the population that is being serviced by that program.  We will include that in our annual report, a description of the priority of service within the various programs funded by the Department of Labor.
    Mr. Boozman.  Thank you.  One last thing, and, again, this is kind of a follow-up to what we were talking about earlier.  The Jobs for Veterans Act directs the Secretary to require poor-performing States to submit a plan to correct their deficiencies.  Has any State been judged to be deficient and provided such a plan?
    The act also requires the Secretary to analyze the extent and reasons for the State�s failures to meet the minimum standard, together with the State�s plan for corrective action for the succeeding year.  Again, have we done that analysis?
    Mr. McWilliam.  Mr. Chairman, to carry out that provision, we first have to establish the uniform national threshold and/or employment rate.  We have been unable to do that due to sufficient data.
    We are currently accumulating new data under the system, and, as I believe GAO mentioned, for fiscal year 2007 we will have that national rate and we will be able to evaluate those programs.
    However, in the interim, we do on a quarterly basis review the States� performance against their negotiated performance measures and take corrective actions by providing technical assistance to them so that they can achieve their negotiated rates.
    Mr. Boozman.  So I guess, then, by that there have been some States that have had some problems?
    Mr. McWilliam.  Yes, sir, there are.  By the quarterly reporting system, by the 17 performance measures that we require to be reported, along with the 6 at the Public Labor Exchange, it makes it possible for a State director and the regional director to identify the State that is having a problem to then provide technical assistance.  I was talking to a regional administrator just last week.  He told me of a State where that happened.  They were able to respond.  They were able to identify what was causing the issues with the problems within that State and help them put in corrective measures to increase their performance.
    Mr. Boozman.  Have you got any other things?  Again, thank you very much for your testimony.  We do appreciate your hard work.  Like I say, this Committee will assist you in any way that we can.
    Mr. McWilliam.  Thank you, Mr. Chairman.
    Mr. Boozman.  The meeting stands adjourned.

    [Whereupon, at 4:35 p.m., the Subcommittee was adjourned.]



</pre></body></html>
